<html>
<title> - IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS: CENTRAL FLORIDA FIELD HEARING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  IMPROVING AND REFORMING OUR NATION'S
                    SURFACE TRANSPORTATION PROGRAMS:
                     CENTRAL FLORIDA FIELD HEARING

=======================================================================

                                (112-16)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              Available online at: http://www.fdsys.gov/


                  U.S. GOVERNMENT PRINTING OFFICE
65-738 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Bruno, Hon. Frank, County Chair, County of Volusia, Florida......     8
Prasad, Ananth, Assistant Secretary for Engineering and 
  Operations, Florida Department of Transportation...............    10
Burleson, Bob, President, Florida Transportation Builders 
  Association....................................................    12
Whitfield, Randy M., Staff Director, Palm Beach MPO..............    13
Yarema, Geoffrey, Partner, Nossaman LLP..........................    15
Lawless, Richard P., President and CEO, U.S.-Japan High-Speed 
  Rail...........................................................    16
Stone, Cheryl, on behalf of the transportation disadvantaged 
  community......................................................    18

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bruno, Hon. Frank................................................    48
Prasad, Ananth...................................................    64
Burleson, Bob....................................................    68
Whitfield, Randy M...............................................    71
Yarema, Geoffrey.................................................    74
Lawless, Richard P...............................................    94

                       SUBMISSIONS FOR THE RECORD

Calvert, Sharon, on behalf of the Florida Alliance, written 
  testimony......................................................    21

                        ADDITIONS TO THE RECORD

Audet, Normand, President/BA, Amalgamated Transit Union Local 
  1596; Blackwell, Angela Glover, Founder and CEO, PolicyLink; 
  Braswell, Allie, President and CEO, Central Florida Urban 
  League; Diaz, Denise, Director, Central Florida Jobs with 
  Justice; Henderson, Wade, President and CEO, The Leadership 
  Conference on Civil and Human Rights; Perera, Gihan, Executive 
  Director, Miami Workers Center; White, Portia Reddick, Director 
  of Legislative and Political Affairs, Transport Workers Union 
  of America, AFL-CIO; statement for the record..................    99
Bryan, Ken, Florida Director, Rails-to-Trails Conservancy, letter 
  to Hon. Mica, a Representative in Congress from the State of 
  Florida........................................................   106
Bustos, Sr., Timothy, on behalf of the Florida Bicycle 
  Association, written statement.................................   108
Castro, Hon. Anne, City Commissioner, city of Dania Beach, 
  Florida, written testimony.....................................   109
Davis, Robert, on behalf of LOCUS--Responsible Real Estate 
  Developers, written testimony..................................   112
Hughes, Daniel V., Chairman, Jacksonville National Cemetery 
  Advisory Committee, letter, cost estimate, and maps, to Hon. 
  Mica, a Representative in Congress from the State of Florida...   116
Letourneau, Darla, on behalf of BikeWalkLee, written statement...   122
Lewit, Scott M., President, Structural Composites, Inc., 
  ``Restoring America's Infrastructure: Composite Bridge Deck 
  Technology--An Approach to Cost Reduction While Providing 
  Stimulus to an Ailing American Industry''......................   128
Macnab, Deirdre, President, League of Women Voters of Florida, 
  letter to Committee on Transportation and Infrastructure.......   131
Smith, Doug, Commissioner, Martin County Board of County 
  Commissioners, letter to Hon. Mica, a Representative in 
  Congress from the State of Florida.............................   132
Strickland, Hon. Harley, Mayor, city of Orange City, Florida, 
  letter to Hon. Mica, a Representative in Congress from the 
  State of Florida...............................................   134
Volinski, Joel, Director, National Center for Transit Research, 
  University of South Florida, written testimony.................   136
Watson, Wes, Executive Director, Florida Public Transportation 
  Association, written testimony.................................   140

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                  IMPROVING AND REFORMING OUR NATION'S
                    SURFACE TRANSPORTATION PROGRAMS:
                     CENTRAL FLORIDA FIELD HEARING

                              ----------                              


                         Monday, March 14, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m., at the 
Maitland Civic Center, 641 South Maitland Avenue, Maitland, 
Florida, Honorable John L. Mica [chairman of the committee] 
presiding.
    Mr. Mica. Good morning. I'd like to welcome you and call to 
order this hearing of the United States House of 
Representatives Committee on Transportation and Infrastructure.
    This morning's hearing is devoted to the subject of 
improving and reforming our Nation's surface transportation 
programs. This is a series of hearings that we are doing across 
the country. I'm Congressman John Mica. I'm pleased to chair 
the committee. And we have with us the ranking Democrat member 
and the leader--Democrat leader of the committee, Mr. Rahall, a 
gentleman from West Virginia.
    Also, on the committee is a ranking member of the Rail 
Subcommittee, Ms. Brown from Florida. Ms. Hirono, who is on 
four of the subcommittees, a nice, young lady from Hawaii, 
Mazie Hirono. Mr. Farenthold, the gentleman from Texas, one of 
our newer members and joining us today coming from Texas. 
That's the makeup of the field hearing committee members this 
morning.
    The order of business will be as follows. We'll have 
opening statements by members, then we have a panel of 
witnesses. And this is a formal hearing. The witnesses, we try 
to get them to limit their comments to five minutes and then an 
opportunity for questions. We'll get to them in a few minutes.
    I might also say as we open the hearing that while this is 
a formal hearing and we only have the opportunity to hear from 
these witnesses, the committee does welcome and invites any 
commentary, any suggestions, positive recommendations that we 
can insert in the record of this hearing. So everyone is 
welcome to participate in that regard. We ask that you do that 
through a Member of Congress, either myself, Ms. Brown or to 
the committee. And Mr. Rahall is recognized for a motion to 
keep the record open.
    Mr. Rahall. I move as chairman, that the record remain open 
for those who wish to submit testimony in today's hearing for 
two weeks.
    Mr. Mica. Without objection, so ordered. Again, you'll have 
the opportunity to submit testimony.
    Let me start by, again, welcoming everyone. Let me also 
take a point of personal privilege. We have representatives--
some elected officials here, not the ones on the panel, but if 
we have any elected officials, would you stand and introduce 
yourself very briefly?
    Mr. Smith. Doug Smith, Martin County Commissioner.
    Mr. Mica. Real loud for the record, too.
    Mr. Allebach. Jeff Allebach, City of Orange City city 
council.
    Mr. Strickland. Harley Strickland, Mayor of Orange City.
    Mr. Van Der Weide. Richard ``Dick'' Van Der Weide, Seminole 
County.
    Mr. Mica. Dick Van Der Weide, Seminole County.
    Mr. Mango. John Mango, the mayor of the beautiful City of 
Longwood.
    Mr. Lacey. Charles Lacey, mayor of Winter Springs.
    Ms. Reponen. Bev Reponen, councilwoman Maitland.
    Ms. Lucarelli. Jo Ann Lucarelli, City of Lake Mary 
commissioner.
    Mr. Hussey. Gardner Hussey, City of Altamonte Springs 
commissioner.
    Mr. Wolfram. Steve Wolfram, City of Altamonte Springs.
    Mr. Schieferdecker. Howard Schieferdecker, mayor of 
Maitland, also one of the beautiful cities that are involved in 
the SunRail.
    Mr. Brummer. Fred Brummer, Orange County Commission.
    Mr. Mica. Do we have anyone else in the back? And we also 
have representatives of--I know we have at least a 
representative of Rep. Webster.
    Voice. Congressman Webster's Office.
    Mr. Mica. Anyone else representing any--yes.
    Ms. Little. Edie Little with Representative Hukill.
    Mr. Mica. I'm sorry, louder.
    Ms. Little. Edie Little with Representative Hukill.
    Mr. Mica. OK. Representative Dorothy Hukill.
    All right.
    Ms. Brown. Mr. Chairman.
    Mr. Mica. Yes.
    Ms. Brown. I think the Secretary of Transportation is here.
    Mr. Mica. Who is that?
    Mr. Bruno. Noranne Downs.
    Mr. Mica. Oh, Noranne Downs. I didn't see her in the back. 
Our district secretary, Noranne Downs, welcome and you're 
recognized.
    And I'll also say, I don't know if she's in the room now, 
we have our Secretary Kopelousos, who has joined the committee 
staff and with us for about a month and a half, two months, in 
the interim from leaving as secretary of transportation to new 
county manager role. And she's been gracious to help us in 
helping craft the legislation we're about to undertake and 
bring together other secretaries of transportation. In fact, 
she had them in town this week in Washington working on that 
project.
    Again, I'm pleased to welcome you this morning to this 
hearing. Let me say that this hearing is important and it is 
part of a series of hearings. When I assumed the responsibility 
to lead the committee, I felt that it was incumbent on us to 
pass a long-term transportation bill, which sets forth, of 
course, the policy, the projects, the funding formula, again, 
all the details, the blueprint for our Nation to go forward 
with all modes, multi-modal transportation. Sometimes they 
refer to the transportation bill as the highway bill. I don't 
intend for this to be a highway bill.
    But I thought it would be good to hear from, not just the 
Members of Congress and some particular interests in 
Washington, but around the country. So we engaged on a series 
of hearings. The first hearing we held about, what, a month 
ago, Mr. Rahall, and I thought we should also do this in a 
bipartisan manner. It's my pleasure to kick off the series of 
national hearings in the hometown of Mr. Rahall, the Democrat 
leader of the committee. And so we took the committee to 
Beckley, West Virginia and we were fortunate to enjoy his 
hospitality in his community and hear from the citizens of his 
community and then we went up to Charleston (sic), the capital 
of West Virginia.
    Mr. Rahall. Ton.
    Mr. Mica. Ton, T-O-N, OK. I'll get it right. I like both of 
them, South Carolina and West Virginia.
    But from there we went on to a series of hearings around 
the country. We started after a 4:30-in-the-morning vote. I 
think we convened at 10:30 in the morning in Columbus, Ohio. We 
were in Indianapolis, Indiana. We were outside of Chicago. We 
flew to Oregon. Held a hearing in Vancouver, Washington. One in 
Fresno, California and then down--we had an unusual hearing in 
Los Angeles because it was a joint hearing between the House 
and senate bicameral and bipartisan.
    Mr. Rahall and I have a counterpart committee in the 
senate. It's environment public works. It's headed by Barbara 
Boxer and then also--she's from California and, of course, we 
did the hearing with her. And then Mr. Jim Inhofe from 
Oklahoma. So after California we were in Oklahoma, both in 
Tulsa and Oklahoma City. We were in Arkansas, Tennessee--today, 
of course, we're in Florida. This is the only hearing we'll 
have in Florida. We picked this because Mr. Oberstar, my 
predecessor, last year did a hearing in Miami. We also have 
hearings scheduled for New York and Pennsylvania towards the 
end of the month and then we will have some hearings in 
Washington also the end of the month and hopefully begin 
drafting a long-term bill.
    About a week ago, with the help of Mr. Rahall and both 
sides of the aisle in our new powerful freshman class, we 
passed on a vote of the House to take the transportation 
portion and extension, the sixth extension--well, we had done 
six extensions of the transportation bill which expired in 
2009. We took that out of the CR, the continuing resolution, 
because we've been funding the government, as you know, on sort 
of a hiccup basis and the last CR expired the 4th of March. And 
in that was the sixth extension of the transportation bill. 
Again, that sets forth the policy and funding formula for all 
of our states, not a way to operate. But we managed, again, 
through bipartisan support to take out the transportation 
portion and we put it into a seventh extension that takes us to 
the end of this fiscal year, September 30th, to give some 
certainty, to give some stability to the program.
    And now I know Mr. Rahall and I are fairly capable to lead 
the committee, but we weren't able to draft the long-term bill 
and pass it by March 4th in spite of our capability. We still 
needed some time to do the long-term bill. So that's what this 
hearing is about. This is a prelude to putting together the 
six-year transportation measure. What we hope to hear today are 
suggestions on how we can improve programs, how we can change 
the law to make it operate better. Some of the panelists we've 
chosen, and this is just sort of a sampling of folks who will 
tell us that, maybe you can, too. We aren't here for one 
project or another project. We're more interested in how we can 
improve the process, the law, the difficulties, folks, that 
incurred with dealing with the Federal Government or in putting 
projects together or making transportation and infrastructure 
happen. And certainly we can probably write the book on that in 
Central Florida. But there is a lot of room for improvement and 
that's what we hope to have in this legislation.
    So today we're looking for positive suggestions that we can 
put into law that will make the process go smoother, to get 
more bang for the buck, so to speak, and also be able to have 
some sound policy and it will be a multi-mode bill, not just 
highways, but rail, just about every mode.
    Concurrently we're also going to do an FAA bill and we 
should have that before the House the last week in this--the 
last week in this month. We've had 17 extensions. That bill 
expired in 2007. And Mr. Rahall and I have pledged to not let 
that continue, but to try to have that wound up hopefully in 
the next 60 days and have permanent policy and legislation in 
place authorizing our Nation's important aviation industry. So 
that's why we're here. The purpose of today's hearing. I thank 
you, folks, for coming out and thank our witnesses in advance. 
We'll hear from them in a few minutes.
    Now, I'm going to yield to, again, the Democrat leader, the 
ranking member, the gentleman from West Virginia for Mr. Rahall 
for an opening statement.
    Mr. Rahall. Thank you, Mr. Chairman. And indeed it's an 
honor for me to be here in Central Florida, the district 
represented so well by you and our colleague, on my side, 
Representative Corrine Brown, also from Florida. You've been 
given the history of our field hearings thus far. I do 
appreciate the bipartisan manner in which you have conducted 
these hearings. The fact that you did come to my hometown in 
West Virginia to kick them off and the manner in which you have 
thus far lead our committee on transportation and 
infrastructure.
    You know, different regions of our country do face 
different challenges when it comes to transportation policies. 
Certainly the needs here in Central Florida are different than 
the unique needs we have in my terrain--rugged terrain in 
Southern West Virginia with areas very difficult to reach.
    So when we craft a transportation policy, I think it's 
important to recognize that we will find that no one size fits 
all. And that a solution to our Nation's transportation needs 
are critically needed in order to put our people back to work 
in good, long paying jobs that will make our economy more 
competitive and indeed continue the recovery upon which we are 
embarking today.
    At the start of this process Chairman Mica and I pledged to 
work in a bipartisan fashion. We pride ourselves on this 
committee in saying that there are no Republican bridges, no 
Democratic bridges, they are American bridges. And that is 
certainly true under Chairman Mica's leadership. A safe and 
moderate transportation system is one of the most fundamental 
services, I believe, that our Federal Government can provide 
our people. And because of--we've been unable to address it in 
a long-term reauthorization bill thus far, we have placed many 
of our jobs and many of our industry of this country in a 
financial disadvantage by not providing them the certainty that 
they need in the form of a long-term transportation bill.
    So under Chairman Mica's leadership, I feel very confident 
we can do that and hopefully before the end of this calendar 
year. So I express my thanks to each of you for being here as 
well as an excellent turnout. Thank you, Chairman Mica.
    Mr. Mica. Thank you. And let me yield now to my partner, 
and for the members visiting, this is Maitland, Florida. Ms. 
Brown and I get to represent part of this community and are 
very privileged to hold a hearing here in the heart of our 
district. So Ms. Brown is also the former chair of the Rail 
Subcommittee and now is the ranking member of the rail 
committee. The young lady from Florida is recognized.
    Ms. Brown. Thank you, Mr. Chairman. And thank you for 
holding this hearing and I thank my colleagues for coming. Let 
me just give one minute on a little institutional memory 
because when we was elected to Congress back in 1992 for every 
dollar that we--from Florida sent to Washington we was getting 
something like 77 cents back. We worked to change that formula. 
And, in fact, my good colleague and friends from West Virginia 
was taking most of our money. We're on the same side, that's 
why I'm saying.
    But keep it in mind, transportation is very bipartisan and 
we work very closely together to move the needs of the people 
in this country. And infrastructure, in my opinion, is the key 
because for every billion dollars we spend, it generates 44,000 
permanent jobs and that is so crucial with the downturn that 
we're experiencing. And I've got to tell you, here in Central 
Florida we've got a lot of needs and we are very excited about 
working together as a region to address those needs. And the 
motto of my former military person was, one team, one fight. 
And that's what it's been. We've been working together in the 
communities to change the congestion and the problems that 
we've been experiencing on I-4. And everyone in Florida, except 
for the governor, Rick Scott, understands----
    [Applause.]
    Mr. Mica. I might say, this is a formal hearing and in a 
formal hearing those who don't--who wish to express themselves 
may only do so through their representatives. So I wish folks 
would refrain from, you know, commenting on either side. It's 
just the protocol of our hearings, but that's appropriate, so 
thank you.
    Ms. Brown. All right. And I'm going to say what I said 
again. Everyone in Florida, except for the governor, Rick 
Scott, understands that we can't add one more lane because 
that's what he came to Congress and said, we want one more lane 
on I-4. We already have eight lanes on I-4. We all know that 
one more lane won't help us in any way. Any way. We have close 
to 40,000 people a day commuting from Daytona to the Orlando 
region going back and forth.
    Well, I tell you what, last week I went to Salt Lake City, 
Utah and they have the money that we turned down some years 
ago, and they are running 40,000 people a day, folks. I mean, 
the future of Florida and how we compete with our competitors 
is in rail. I mean, the idea of being able to get on a train 
and go from Orlando to Miami, 200 miles, one hour and 15 
minutes is the future. And we work very closely together with 
the high speed rail project to get 90 percent of the funding, 
90 percent. That just does not happen. Ninety percent.
    And ten percent was coming from the private sector. Eight 
different companies that have come to the plate have said that 
they want to partner with us. They will pay any additional 
costs, any overrides, but they just want the first option to go 
from the Orlando to the Miami piece. Now the Federal Government 
paid for the stay. You know, everybody in this room got an 
opinion, but facts is the hard thing to get around.
    And we did a study and, in fact, when I was coming up--I 
used to like this program, Badge 714, and Sergeant Joe Friday 
used to say, the facts, ma'am, just the facts. And that's what 
we need, the facts on the study that we paid for, Mr. Chairman. 
We don't have that study available and I'm asking the committee 
to get a copy of that study from the State of Florida so that 
we will have the actual factual information on the study. Can 
you give me the process what we have to do to get it? Because 
as we speak, the State have not released that information. And 
let me just say one other thing, I see all kinds of rumors 
about how much has been spent on this project. Well, I tell 
you, my figures show that only about $21 to $30 million have 
been spent. In other words, at least $127 million coming back 
to the Federal Government, we're going to make sure that not 
one penny is spent that was not obligated.
    Now one thing, as I close, I have been very depressed. I 
keep thinking about all of the jobs that the people could have 
with 12 percent unemployment. I know everybody in this room 
have a job, but we have 12 percent unemployment. What does that 
mean, over 2 million Floridians are out of work, good jobs, 
construction jobs, railroad jobs, so I--five minutes before 
Friday, five minutes before 5:00 I got a call from the 
secretary, at least they're putting the money out, but we have 
an opportunity to compete. So as the minister said, there's 
still a ram in the bush, or in other words, there's still a dog 
in the fight and we're still in it.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me yield now, and I thank her for coming probably the 
furthest, from Hawaii. A young lady from Hawaii. She serves on 
four of our six subcommittees, Ms. Hirono.
    Ms. Hirono. Thank you very much, Mr. Chairman and aloha 
everybody.
    The Audience. Aloha.
    Ms. Hirono. It's great to be here. I'm sure many of you 
have visited Hawaii. Hawaii and Florida have quite a few things 
in common and the chairman tells me that this weather, for 
example, which is really gorgeous is very much representative 
of what I experience whenever I get to go home, but also our 
reliance on tourism. We have a lot of issues in common, so I'm 
glad to be here. I have served on the transportation and 
infrastructure committee going on five years now and one of the 
major aspects of this committee that really enables us to work 
together is that every single one of the members, 435 Members 
of Congress, have--represent districts where transportation 
needs are at the top of the list of both projects and issues 
that we need to address. So it does make for a very bipartisan 
effort.
    And in Hawaii for the first time in decades and decades, we 
are on our way to providing light rail. We don't have a mass 
transportation system in Hawaii, except for buses. And, of 
course, we have a very unique situation in Hawaii in that we 
have islands and you can't get from one island to another by 
driving. Every single state, every region has unique needs and 
we have common issues, too, such as how are we going to pay for 
our transportation. So these kinds of hearings are really 
important for us to see literally on the ground your thoughts, 
your concerns, your ideas that I hope we can reflect in this 
massive transportation bill that we will be working on under 
the chairman's leadership.
    So again, I'm here to hear what you have to say and as we 
say in Hawaii, Mahalo Nui Loa. Thank you very much.
    Mr. Mica. Thank you.
    Let me recognize now, the gentleman from Texas. As I said, 
he's a new Member of the Committee, part of that new powerful 
class that's entered Congress.
    Welcome, sir, you're recognized.
    Mr. Farenthold. Thank you very much, Mr. Chairman. I'd like 
to thank everyone in Central Florida for their hospitality. I'm 
a regular visitor to Central Florida. I'm here pretty much 
every year for long as I can remember. College, visiting the 
theme parks and as a radio talk show host coming to spring 
training for baseball. So it's good to be back in what I would 
consider one of my second homes, Central Florida.
    Texas and Florida have a whole lot in common. We understand 
how difficult it is to get things done and how Federal dollars 
come with Federal red tape and Federal red tape even comes to 
private projects without Federal dollars. And part of what I 
feel our freshman class was elected to do was to come get 
Washington out of your hair and that's one of the things we're 
doing.
    The other thing, I think as freshmen, we were sent to 
Washington to do was listen. There's a broad feeling that 
Washington has lost touch with the folks back home and the 
freshman class is committed to listening. One of the things we 
were able to work with the leadership to do is get a schedule 
together. They gave us as much time back home as possible. One 
week a month we typically will be free to come home or travel 
the country to learn what the folks who elected us want us to 
do. And that's the reason I'm here, to listen to you to know 
what you guys want done or probably more likely what you want 
undone with the Federal Government.
    Thank you very much for coming out to listen, everyone in 
the audience. And to our panel of witnesses, I look forward to 
your input. Thank you. God bless Texas. God bless Florida and 
God bless America.
    Mr. Mica. I think that concludes our opening statements. 
And we'll turn now to--we have one panel of witnesses and as I 
said, this is representative of the--of some various topics 
that we need to address and this long-term bill. And what I've 
done in the other hearings is I tried to get folks not to read 
a prepared statement, but to try to give us the top points that 
they would like to see. Again, we are going to be sitting down 
at the end of this month, the beginning of next month and 
crafting new Federal law, new Federal guidelines, a blueprint 
for the next six years, probably for the next decade because it 
takes a couple of years to pass a new bill and enact another 
one after they expire. So it does take a while to get these 
things passed and we want as much positive reform and as many 
positive provisions as we can in this legislation to move 
forward.
    So with that, again, let me welcome our witnesses. I won't 
introduce them all at once here. We'll introduce them 
individually, then the order of business, we'll withhold 
questions until we've heard from the whole panel and then we'll 
open it to questions from members.
    So with that, our first witness and no stranger to Central 
Florida is Mr. Frank Bruno. He's served as the chair of the 
county council. He's been involved in numerous transportation 
initiatives in Central Florida and a leader, not only locally, 
but statewide.
    Good morning, Mr. Bruno, welcome. And you are recognized.

  TESTIMONY OF THE HON. FRANK BRUNO, COUNTY CHAIR, COUNTY OF 
                            VOLUSIA

    Mr. Bruno. Good morning, Mr. Chairman.
    Thank you, Mr. Chairman Mica and Ranking Member Rahall, and 
the Members of this Committee for the opportunity to provide 
testimony at this field hearing on improving and reforming our 
Nation's surface transportation programs.
    I represent Volusia County, which is framed by the Greater 
Daytona Beach area with 46 miles of beaches on the east and the 
St. Johns River and the outskirts of Orlando to the west. The 
County has a population of about 500,000 and encompasses 16 
municipalities within a geographical area the size of the state 
of Rhode Island.
    The national recession has hit our Nation and Volusia 
County hard. Locally, businesses small and large have closed. 
Our residents have lost their jobs and have had their hours or 
benefits reduced and some have even lost their homes. The 
economic slump hurts tax revenue while demand for government 
service increases. We cannot rely on spending alone.
    Here's our solution. Volusia County has moved forward with 
partnerships, responsible spending and careful decision-making. 
How have we accomplished this in the middle of the most 
difficult economic conditions our Nation has experienced in 
more than 70 years. Similar to the goals of this Congress, it 
did not start with more spending. We have adopted this model of 
governance to solve transportation and infrastructure 
projection.
    As everyone here knows increases in infrastructure needs do 
not always decrease in tough economic times. I'd like to give 
you four examples of partnerships that we've had in Volusia 
County: A cost sharing venture with the City of Port Orange and 
the county and the state; the four-lane South Williamson 
Boulevard, that's a $11.8 project, without this partnership 
this would have remained two lanes for the foreseeable future. 
Dunn Avenue extension over I-95. It's a $10.3 million unique 
partnership with the Federal, state, county, city and private 
participants which advance the construction by more than ten 
years with a major overpass providing much needed economic 
stimulus. The City of Daytona Beach Shores traffic 
signalization upgrade on Dunlawton is a $300,000 project. It 
was a city-led project funded equally by contributions from the 
city, the county and FDOT financing the Central Florida 
commuter rail system, we call SunRail, 61 miles route linking 
DeLand to Downtown Orlando. This is a partnership between 
Volusia, Seminole, Orange and Osceola Counties, the City of 
Orlando, the state and the Federal Government. This takes 
thousands of cars off of our highways and creates over 13,000 
new jobs statewide.
    I'd like to talk briefly about the American Recovery and 
Reinvestment Act of 2009, which we found extremely challenging 
to execute and implement. Since 2008 the Florida Association of 
County Engineers and Road Superintendents, FACERS, and the 
National Association of County Engineers, NACE, have worked 
towards streamlining the Federal Aid Program for projects for 
Local Public Agencies. The main issue for us involves having to 
meet the entire gamut of Federal regulations for projects that 
may be as little as $50,000.
    In April 2009, NACE--I'm sorry. In April 2009, NACE adopted 
a policy to develop and advocate legislative language changes 
to the next transportation and authorization bill to improve 
the efficiency of implementation of the Federal Aid Program by 
local governments. We believe that just as the Federal 
Government needs to push down projects to the states and local 
agencies, there is a level of local projects that should be 
even further delegated and exempted from the state management 
to reduce redundant oversight and increase flexibility and 
efficiency.
    The 112th Congress and the committee has an opportunity to 
create more flexible framework for state and public agencies to 
accomplish transportation projects by, one, streamlining the 
project approval and fundraising process for infrastructure 
projects; two, having the Transportation Reauthorization Bill 
create legislative support and incentives for public private 
partnerships; three, develop a more holistic approach to 
defining regional projects that consolidate individual segments 
and allow maximum flexibility to apply project savings as they 
are created; and four, create an exemption level for the 
smaller projects that do not require Federal or state oversight 
to streamline their implementation process, thus save on 
overall costs.
    In closing, I want to express my thanks to Chairman Mica 
for his interest and commitment to creating jobs and helping 
America build its transportation infrastructure. Your passion 
and leadership on this issue is just what America needs. We 
think that a recovery strategy based on innovative, regionally-
based approaches and partnerships is just what America needs 
most. We think that such an approach would be transformative to 
solving the problems of our Nation in a timely and ultimately 
fiscally efficient manner. And we hope that this Congress can 
work towards developing such a plan this year. I look forward 
to working with you both and your respective committees and 
will be available to assist in any way that is helpful.
    Thank you.
    Mr. Mica. Thank you for your testimony. We will now turn to 
the second witness, who is Ananth Prasad. Mr. Prasad serves as 
the Assistant Secretary for Engineering and Operations for the 
Florida Department of Transportation.
    Welcome, sir, and you're recognized.

TESTIMONY OF ANANTH PRASAD, ASSISTANT SECRETARY FOR ENGINEERING 
      AND OPERATIONS, FLORIDA DEPARTMENT OF TRANSPORTATION

    Mr. Prasad. Chairman Mica and Members of the Committee, 
thank you for the invitation and the opportunity to discuss 
ways to improve and reform our Surface Transportation Program.
    We at Florida Department of Transportation work every day 
to provide a transportation system that helps people move 
people and goods across the state and the Nation, boosts 
economic prosperity and growth, all while improving Floridians' 
quality of life.
    My testimony this morning, I want to focus on the following 
goals: First, maximizing the rate of return, the reduction of 
the number of Federal transportation programs, cutting 
government red tape, streamlining project delivery, expansion 
of private sector investment and other creative financing 
alternatives and adoption of performance and accountability 
measures.
    Building and investing in our infrastructure is fundamental 
to our state and our Nation's economic future and growth. The 
faster we can move people and goods to their destination, the 
faster our economy recovers and more prosperous our Nation will 
be. But with scarce resources and dollars, we must be vigilant 
to insure that we must invest only where taxpayer's money will 
be put to good use.
    Florida is a donor state and historically has received 86 
cents on every dollar we send to Washington. This has to 
change. The goal of the new Federal reauthorization law should 
be one that is formula-driven which provides flexibility so 
that the donor states can achieve a higher rate of return 
without negatively impacting what can be delivered. We applied 
the no earmark stance, but let's take it one step further, 
let's look at all the earmark funds that have been done in the 
past, but have not been committed. Just in Florida alone that 
amounts to about $100 million. And I'm sure nationally it's in 
hundreds of millions.
    Over the years, the Congress has asked state departments of 
transportation to do more things with fewer resources. With the 
downturn in the economy, it's time to tighten our belt. This is 
exactly what we're doing in Florida. Instead of funding more 
than a hundred individual programs in the next transportation 
bill, we should focus on a few core programs which will grow 
our economy. We must give serious considerations to whether--
when resources and dollars are at a premium--spending money on 
a sidewalk, bike trails, beautification, and other projects 
like these is the most prudent use of taxpayer money.
    Unnecessary Federal mandates and regulations stifle 
efficiencies, force states to spend transportation dollars on 
unrelated initiatives and delay critical transportation 
projects. We must eliminate these mandates and regulations that 
hinder investment, from both public and private sectors, and in 
essential transportation projects. Mr. Chairman, I want to make 
mention one specific example, the Davis-Bacon Act. It requires 
states to pay prevailing wages on public works projects.
    In Florida, we just about meet or exceed the prevailing 
wage rate because the market requires us to pay that higher 
wage rate. Furthermore, this Act is not flexible. It does not 
contemplate any flexibility as to the type of work, duration of 
work or dollar amount of the contract. The Davis-Back Act 
applies to contracts in excess of $2,000. I didn't misspeak. 
It's $2,000. So let's look at adjusting that.
    The real cost of the Davis-Bacon Act often is the mountains 
of paperwork and compliance costs imposed on the state DOTs. If 
we write the new bill to allow DOTs just like Florida, to 
certify that we're complying with the Davis-Bacon Act, we can 
provide more services at a lower price. The bottom line for 
these mandates takes away precious resources, which could 
otherwise be dedicating building new roads and bridges and 
improving our aging infrastructure. A streamlined delivery of 
transportation improvements will result in immediate cost 
savings. Mr. Chairman, one bold idea we'd like to offer is, to 
allow by FHWA, to substitute state procedures for environmental 
review and compliance, acquisition and relocation, other 
programs when states can demonstrate that their laws, 
procedures, practice and safeguards meet or exceed Federal 
standards. At the end of the day we at the state level are held 
accountable for our decisions we make each and every day.
    Increasing the gas tax is not an option. However, as we all 
know, the Highway Trust Fund is increasingly being asked to 
fund more programs with fewer dollars. Therefore, we must all 
work together to bridge this gap.
    Florida currently has eight Public-Private Partnerships 
underway valued at about $3 billion. It has helped us to 
finance large projects such as I-595, the Port of Miami Tunnel 
and the I-75 iRox project. Florida has shown through 
partnership with private sector that we can afford better 
transportation options, provide projects faster and deliver 
them under budget.
    Mr. Chairman, we must have a national plan on tolling and 
be afforded the flexibility to toll new capacity on the 
interstate and major bridges on Federal highways in order to 
stretch the traditional funding that much further. One final 
point on funding, let's expand the Special Experimental Project 
such as SEP-14 and SEP-15, which have been quite successful for 
states to pursue privatization opportunities where it makes 
sense. And finally, the Federal program must evolve from the 
prescriptive nature to one that is performance driven, one that 
is based on performance measures.
    Thank you, Mr. Chairman, for your leadership and your 
interest in identifying ways to improve and reform our Nation's 
transportation system and we stand ready to work with you and 
the Members of the Committee to develop new legislation that 
provides a roadmap to the future. Thank you.
    Mr. Mica. Thank you for your testimony.
    And we'll recognize one of our state transportation 
leaders, Bob Burleson, and he serves as the President of the 
Florida Transportation Builders Association. Welcome, Mr. 
Burleson, and you're recognized.

 TESTIMONY OF BOB BURLESON, PRESIDENT, FLORIDA TRANSPORTATION 
                      BUILDERS ASSOCIATION

    Mr. Burleson. Thank you, Mr. Chairman, and good morning to 
you and Members of the Committee.
    My name is Bob Burleson. I am President of Florida 
Transportation Builders which represents the construction 
industry--the transportation construction industry in Florida. 
I particularly appreciate the opportunity to testify at this 
field hearing and I'm particularly honored to appear before 
you, Mr. Chairman, in our home state. The main concern of our 
industry is the uncertainty of funding, which is making it 
extremely difficult for contractors and DOTs to plan and 
program projects over the next several years. Contractors are 
currently postponing decisions, such as purchasing new 
equipment or hiring new employees because they're unsure of the 
direction the program will take. Timely enactment of a multi-
year surface transportation bill with dedicated and predictable 
levels of funding for maintaining and constructing our Nation's 
highways, to restoring confidence in our industry and is also, 
in my opinion, the key to our economic growth and job creation 
throughout the United States.
    I certainly understand that asking for increased investment 
in transportation infrastructure at the same time Congress is 
trying to decrease overall spending and reduce our deficit is 
difficult. I believe first and foremost we must get our deficit 
under control. There's no greater threat to our country than 
the rising debt. We must align our transportation spending with 
the revenues coming into the Highway Trust Fund. As with all 
other areas of both our personal lives and government we have 
to live within our means.
    Someday in the future I hope we will certainly address the 
need to increase those revenues. Until that time we cannot 
spend more than we take into the trust fund. That requires us 
to set priorities, streamline the process and work smarter. I 
certainly recognize that transit plays an important role in 
moving individuals from place to place, particularly in our 
urban areas. I would ask that you consider allowing the Highway 
Trust Fund to revert back to its original purpose of building 
and maintaining our interstates and other Federal highways. 
Transit is needed and deserves a dedicated funding source of 
its own. Until that is established, transit should obtain its 
fund from general funding. That would provide a substantial 
increase to highway funding.
    We must protect and maintain the investment we have in our 
national highway system. I urge you to minimize the number of 
funding categories and Federal programs through which funds are 
distributed. We cannot afford to fund such non-basic items as 
landscaping, bike paths, transportation museums, to name a few, 
in these economic times.
    Much has been discussed about Public-Private Partnerships 
and Florida has been a leader in Public-Private Partnerships. 
We must allow tolling of any added capacity on our interstates 
and other major Federal highways. We cannot view PPPs as only a 
source of capital for future projects. The PPPs must bring 
their own revenue source, generally tolls, to the table. Simply 
speeding up the start of a project by borrowing money from a 
private investor with the only source of repayment to the 
investor being future year's revenue does not create a bigger 
pool of funding. We simply kick the can down the road. As I've 
said before, now more than ever, we must pay for what we do.
    The past two surface transportation reauthorization bills 
have included project streamlining provisions and to date, 
projects still take nearly two decades to complete. The GAO 
says there are as many as 200 major steps involved in 
developing a transportation project. I hope that this new bill 
will contain some real progress in streamlining project 
delivery.
    Mr. Prasad mentioned the Davis-Bacon Act and I'd like to 
mention just one area. Many of the rates that have been 
established in Florida early in 2009 make perfect sense. But we 
have other rates that are way out of line. We have examples 
where the mandated rate for a laborer is more than the rate for 
a crane operator. This makes absolutely no sense. These type of 
wage decisions only serve to raise costs when we need to use 
our resources as wisely as possible.
    Finally, Mr. Chairman, the Federal gas tax has served us 
well for a long time as a funding mechanism. We must develop a 
new type of funding mechanism. It must continue to be a true 
user fee. It must include a way to charge alternative fueled 
vehicles. I would encourage the Committee to consider a serious 
study of vehicle miles traveled or VMT as a new funding source 
with a goal of going to a VMT system nationwide by 2020.
    Thank you, Mr. Chairman. I really appreciate the 
opportunity.
    Mr. Mica. Thank you.
    And we'll hear now from Mr. Randy Whitfield and Mr. 
Whitfield is the Staff Director of the Palm Beach Metropolitan 
Planning Organization and serves as executive secretary to that 
board. Welcome and you're recognized, Mr. Whitfield.

TESTIMONY OF RANDY M. WHITFIELD, STAFF DIRECTOR, PALM BEACH MPO

    Mr. Whitfield. Chairman Mica and Members of the Committee. 
I'd like to thank you for the opportunity to testify at this 
hearing in consideration of the next Surface Transportation 
Bill. I'd like to address several points today related to 
transportation funding, the need for flexibility in meeting 
those transportation demands and the process involved in 
providing mobility.
    Transportation funding is currently divided among a number 
of programs that have associated guidelines and requirements 
limiting the use of those particular funds. Funding should be 
streamlined into a few funding programs that have flexibility 
and can be applied to a wider range of programs involving 
maintenance and capacity increases. There should be a floor for 
these programs ensuring that funding is available for all 
modes. There should be some level of transferability among the 
programs at the lower levels to address local needs. The 
ability to leverage these funds in partnership with the private 
sector needs to be encouraged and expanded.
    Maintenance and operation of the transportation system is 
an important consideration today and into the future. 
Preservation of the current system must be a priority. National 
research into technology should be continued to find and 
develop ways to operate the transportation system safely and 
more efficiently. Intelligent Transportation System solutions 
such as the I-95 managed lanes and a regional transit Smartcard 
that we're working on in South Florida will play a larger role 
in providing for the mobility of people and goods.
    To fund these streamlined programs, a reliable, predictable 
funding mechanism is needed. The gas tax has served the country 
well over the years, but no longer provides an adequate revenue 
stream to meet current and future needs. Increased vehicle 
efficiency and use of alternative fuels and energy sources is 
good for the environment and national goals to reduce 
dependency on foreign sources, but the transportation revenues 
are reduced. In addition, users of alternative energy sources 
are not paying a fair share of their impacts to the 
transportation infrastructure caused by vehicle use. A 
different funding mechanism is needed to ensure all users of 
the transportation system contribute to the program to provide 
adequate funding to construct, operate and maintain the 
transportation system.
    How do you provide transportation using these funds and 
implement the needed projects to ensure capacity in the system 
efficiently? This requires a balancing act between local needs 
and regional objectives. As indicated in my testimony, I come 
from a large area in part of the Miami Urban Area. We are 
working together at the local level with the MPOs to address 
those local needs, but we've also created a regional committee 
to try and put together regional projects and to look at the 
bigger picture. These types of coalitions of the MPOs and 
transportation service providers have been created in other 
large areas of Florida. They are balanced in the local and 
regional aspects of transportation services with the 
flexibility inherent in makeup of the MPOs and councils. In 
time, these structures may evolve into more regional entities 
to remain competitive in the national economy.
    Accountability is an issue that should be part of the 
process for providing transportation. Performance measures can 
play a major role in meeting transportation objectives and 
demonstrating to the public how funds are making a difference. 
These performance measures must be related to the overall goals 
and be able to show progress toward meeting these goals. They 
should be meaningful, easy to measure and easy to understand.
    An area to apply these performance measures to show 
improvement is project delivery. This is an area that continues 
to need streamlining in the various phases of project 
development. Opportunities exist to expedite review of plans, 
environment impact, right-of-way acquisition and project 
approval. An example of this is Florida which is implementing 
an Efficient Transportation Decision-Making process that 
affords an opportunity for review by all agencies at the same 
time. There are agreements with reviewing agencies committing 
them to project review within a specific time period. Any 
problem areas are identified early on so resolution can begin 
sooner. The process results in reductions in review time and 
documentation which moves forward with the project. All phases 
of project development should be reviewed to implement 
streamlining opportunities and expedite project delivery.
    One project which I forgot to put into my testimony, but I 
do want to mention is the need for rail service along the east 
coast corridor from Jacksonville down to West Palm Beach and 
Miami, along the FEC corridor. That's a project that would use 
conventional rail, not that other type of rail, and we do 
support that.
    In summary, the national transportation system is a key 
element of the economy and lifestyle for U.S. citizens. This 
system needs to be repaired, preserved and expanded to meet 
today's needs and tomorrow's demands. We need a simpler system 
to fund the program, flexibility to address the needs, a fair 
system of funding and decision-making where the demands occur 
and the ability to respond to these needs quickly.
    Thank you for the opportunity to speak today.
    Mr. Mica. Thank you for your testimony.
    And we'll turn to Geoffrey Yarema and he is a nationally 
recognized leader in infrastructure, development and finance. 
Welcome, sir, and you're recognized.

      TESTIMONY OF GEOFFREY YAREMA, PARTNER, NOSSAMAN LLP

    Mr. Yarema. Thank you, Mr. Chairman, Ranking Member Rahall 
and Members of the Committee. Thank you for inviting me here 
today. I've done a detailed statement and submitted it. I will 
only cover the----
    Mr. Mica. No objection. Your entire statement will be made 
part of the record. Please proceed.
    Mr. Yarema. I am a partner in a law firm that represents 
state and regional transportation agencies around the country. 
And basically they are all struggling with the same problem. 
That is, how do they procure, contract and finance their 
largest and most complicated projects while minimizing the use 
of Federal grant funds. That's really the environment that we 
find ourselves in today.
    We're very fortunate that we've been involved in delivering 
many of the signature projects around the country that have 
been doing just that. In addition, I was privileged to serve on 
the National Surface Transportation Infrastructure Financing 
Commission, appointed by U.S. Secretary of Transportation Mary 
Peters, which two years ago produced a final report. So my 
testimony today really reflects my experience on the ground 
representing public agencies as well as the work we did on the 
commission.
    First, let's focus on what is the role of the Federal 
Government and the states in delivering transportation 
projects. The states have the primary responsibility for 
planning, financing, delivering and operating the physical 
infrastructure. The Federal Government historically has 
provided partial funding and has regulated the activity that 
received that funding. That's changing. More recently the 
Federal role has evolved to offer less and less Federal grants 
and more and more loans and incentives to the states to 
maximize their contribution in delivering the infrastructure in 
the absence of the historical Federal share.
    The good news is that Congress has the ability to 
strengthen the programs that we already have to better enable 
states to do more with less Federal resources--and less 
predictable resources. So the proposals that I put forward, 
many of which were backed by the Financing Commission's 
bipartisan and unanimous report, offer the states greater 
flexibility in finding innovative ways to pay for their own 
transportation projects, attracting private capital beyond what 
the public sector can produce, maintaining the user fee 
approach to transportation funding and ensuring long-term 
quality.
    Maybe the single most important financing step the Federal 
Government can take is to enhance the TIFIA program. TIFIA is a 
loan program that was created in 1998 and it is the national 
infrastructure bank we already have. The administration has 
proposed a national infrastructure bank, but we already have 
one and it works very well. It offers credit assistance to 
highways, transit, intercity passenger facilities, freight rail 
and freight transfer facilities. The problem is that it's 
underfunded and undercapitalized. Since 1998, the TIFIA program 
has granted states more than $8 billion in loans, supporting 
projects with a total capital value in excess of $30 billion at 
a cost to the Federal budget of only $1 billion.
    A leading example is from Mr. Farenthold's state, the state 
of Texas--the North Tarrant Express project in the Dallas-Fort 
Worth region. That project, when completed, will create new 
tolled capacity within 13 miles of an existing highway 
corridor, including upgrading the existing facilities. This $2 
billion project was financed with $573 million in state funds, 
$400 million in private loans, a $650 million TIFIA loan and 
$427 million in private equity. So the total $2 billion project 
was funded with $65 million in Federal budgetary impact, the 10 
percent credit subsidy cost for the TIFIA loan. That's 3.5 
dollars for every hundred dollars of project. In addition to 
that, project revenues, not highway tax dollars, will cover 50 
years of operating and maintenance expenses, thus preserving 
the state of Texas' limited transportation dollars for 
operating and maintaining the rest of its existing system.
    So this is the type of result that I suggest needs to be 
replicated more and more around the country. Thank you, Mr. 
Chairman.
    Mr. Mica. Thank you for your testimony. We'll now turn to 
Richard Lawless. He serves as president and CEO of U.S.-Japan 
High-Speed Rail. And he--I'll also note that he recently served 
as deputy under Secretary of Defense for Asian and Pacific 
security affairs. Welcome, sir, and you're recognized.

TESTIMONY OF RICHARD P. LAWLESS, PRESIDENT AND CEO, U.S.-JAPAN 
                        HIGH-SPEED RAIL

    Mr. Lawless. Thank you, Chairman Mica, Congressman Rahall. 
I am, of course, pleased to be here today.
    My testimony will focus on the high-speed rail passenger 
sector. And, in fact, because there has been a lively, mostly 
productive, I think, but somewhat disinformed discussion about 
certain aspects of high-speed rail, I would like to discuss and 
share with you the evolution of high-speed rail in Japan in 
particular and offer some observations in that process on the 
current high-speed rail policies and programs of the United 
States and make some recommendations on the best way to go 
forward.
    For the past two years my company has been partnered with 
the premier high-speed operator in Japan, JR Central--JRC for 
short--to investigate and look for opportunities in the United 
States where that experience and that capability could be 
usefully deployed. Allow me to share with you, briefly, some 
background on the history of high-speed rail operations in 
Japan that I think have relevance to what we're going through 
here in the United States.
    Japan began life--Japan high-speed rail began life as a 
government-owned corporation and within a couple of decades it 
had pretty well made a mess of that through bureaucratic 
mismanagement. It was basically going under receivership. The 
government of Japan divided its national railroad into 
privately-owned networks. And in 1987, JRC assumed 
responsibility for the Tokyo-Osaka corridor, so-called Tokaido 
Shinkansen line.
    Mr. Mica. Could you just--what is JRC?
    Mr. Lawless. Japan Rail Corporation--Central Japan Railroad 
Corporation. It's one of the six operating companies in Japan. 
When JRC took on that responsibility as a privately-owned 
company, they assumed $60 billion in liabilities for the 
existing system. That amount of money that they assumed as a 
liability was twice the then replacement value if they would 
have had to build that system anew. So they assumed all of that 
responsibility. Over the years, the 40 years of operation, JRC 
is a totally privately-owned entity with a cash flow of about 
$16 billion a year in annual revenue and about $1 billion a 
year in net income, was able to pay down most of that debt and 
in the process pay its shareholders a reasonable return on 
their investment as well as invest in new capacity and new 
capabilities. The core of JRC's success was due to an 
exceptional level of service. They simply offer a very high-
quality of service to the riding public. A few examples, they 
move 140 million passengers a year. That equates to a train 
every five minutes, 323 trains a day with 1200 people on every 
train. The annual average lateness or delay on each train 
annual is less than 30 seconds. They have a perfect safety 
record, not having lost a passenger in over 45 years of 
operation. And at the same time having evolved the system 
through five generations of new built rolling stock and other 
systems to bring it to an optimal level of environmental 
friendly and efficient operations. The critical element of 
success, from day one for this system, was that it was planned, 
constructed and operated on a dedicated, grade separated 
corridor for the exclusive use of high-speed rail. That is to 
say this system operates with absolutely no commingling with 
freight or conventional passenger rail systems.
    Unfortunately this strategic concept does not seem to be 
well understood in the United States and this comes back to the 
critical issue that was mentioned earlier by the regulators, 
many of which in the Obama administration, I believe, simply do 
not appreciate the importance of this particular issue. There 
are two elements in particular that are in the mantra of high-
speed rail as it's currently being discussed by the Obama 
administration and that is a nationwide system of high-speed 
rail based on the concept of inoperability. In my written 
remarks I go into quite a bit of detail as to why these two 
concepts are fundamentally flawed and will result in the 
private sector, which has to be involved and that's going to be 
involved, in building these systems. Both of these concepts 
essentially provide a cocktail that will discourage if not make 
impractical the full development and deployment of these high-
speed rail systems in the United States.
    Again, in the written remarks I go into a lot more detail, 
but I would suggest that as this committee looks at the 
restructuring of the laws and regulations, that we take some of 
these key considerations into account.
    I thank you.
    Mr. Mica. Thank you for your testimony.
    We'll now turn to Cheryl Stone. If you could move the mic 
over for her.
    Mr. Lawless. Sure.
    Mr. Mica. And Cheryl Stone is a gubernatorial appointee to 
the Florida Rehabilitation Council and the governor's position 
on disabilities. She's President of the Central Florida Center 
for Independent Living; and she's also served as commissioner 
on Florida's Commission for Transportation Disadvantaged. 
Welcome and you're recognized.

  TESTIMONY OF CHERYL STONE, ON BEHALF OF THE TRANSPORTATION 
                    DISADVANTAGED COMMUNITY

    Ms. Stone. Thank you.
    Good morning and welcome to Central Florida. Thank you for 
the opportunity to speak to you on the issue of transportation 
for those of us that may be considered transportation 
disadvantaged. We are people who are unable to transport 
ourselves or even purchase transportation due to a disability, 
income status or age, and we have no other form of 
transportation available.
    My name again is Cheryl Stone and I have been 
transportation disadvantaged, or TD, as we say. Although I use 
a wheelchair as a result of polio, I've been able to drive most 
of my adult life. But almost 20 years ago I lost that ability 
for a while. I realized then the real meaning of ``you don't 
know what you got, until it's gone.'' Then I had to find 
transportation to get to work. At that time I was a clinical 
microbiologist. I retired after 30 years in the health care 
service.
    I used our local, but very limited para-transit service 
until I was able to drive again. But since that time I now work 
with others in my community to improve and build on our 
transportation successes. There are many areas within the 
SAFETEA-LU bill that impact our quality of life. I pulled out a 
few to show you some examples of how they have worked for us 
and made recommendations on how to make them a little better. 
I'd like to address a few of them here. The New Freedom and Job 
Access Reverse Commute Programs provide grant opportunities for 
transportation services go beyond the ADA requirements and for 
employment for persons who are transportation disadvantaged.
    Here in Orange, Osceola and Seminole Counties there are 
over 2,500 square miles of urban and rural communities. People 
often live in one county and work in another. Lynx, our local 
transit authority, has used Federal funding to create a FlexBus 
service beginning with a vehicle in one locality. Now there are 
several more in other areas. You are picked up within two hours 
of calling the service and can go any place on a defined route 
of five to seven miles most of the day. It's reliable, cost 
effective and assessable. Passengers have transportation that 
meets their schedules and local businesses benefit also.
    This is an example of transit options needed for liveable 
communities and will help people remain in their homes as they 
age. It's vital to maintain and expand funding for such 
programs and even for others that may have been developed with 
different funding streams, local Department of Transportation 
grants can be limited and additional monies may be needed for 
service development and program success. Such support is 
critical.
    Next, inclusion of persons with disabilities in the 
planning process is a win-win for all. Passengers with 
disabilities are stakeholders involved in local transportation 
plans with Metro plan Orlando here in Orlando. Learning that 
what really goes into getting from Point A to Point B and also 
becoming a forum transportation advocate, sort of how I 
started.
    At the same time we hope others understand that we don't 
want ``special'' transportation. We want access to the same 
transit modes so we too have mobility choices. This is a cross-
disability effort including everything from pedestrian 
walkways, to giving us input on the latest changes to the 
planning agency's website. Funding for planning is important, 
but because our citizens know our community needs best, it's 
equally important for our transportation decisions to be made 
at the local level. By keeping it local, we will have greater 
buy-in of new ideas, particularly when we can see the immediate 
impact. Often the process is long and involved when coming from 
the top down.
    And finally, a recent Government Accountability Office 
report still shows a need for increased efforts to coordinate 
transportation services. There are proven benefits to 
coordination, including lower trip costs due to shared rides, 
the ability for communities to increase service hours in areas, 
increase safety and prove customer service and improve 
technology, all of which break down transportation barriers.
    Florida has an award-winning coordination program 
administered and monitored by the Florida Commission for the 
Transportation Disadvantaged. Transportation is purchased and 
coordinated for a variety of organizations and human services 
agencies, including Medicaid non-emergency trips. In the 2010 
annual report 51 million trips were provided to over 800,000 
persons traveling more than 130 miles in Florida. Not just 
medical trips, but for employment, education, daily activities 
and even volunteering. Unfortunately the coordinated system was 
unable to provide over 600,000 requested trips.
    By 2015, the estimated potential TD population in Florida 
may grow to over eight million persons. This will include the 
baby boomers who are living longer, veterans and other who may 
have a disability and more persons who, because of hard 
economic times, are low income. Incentives for coordination and 
strong policies to prevent efforts to block coordination at 
Federal, state and local levels are necessary to keep all 
citizens engaged in life activities.
    Transportation is about choices. Personally I'm still 
looking forward to and support efforts to achieve the various 
rail projects that will be in our future not only because there 
will be more choices, but I know that such projects will also 
bring needed improvements in our local infrastructure, like 
roadways and transit services. No one type of transportation 
stands alone and access to all is the true meaning of 
independence. Thank you again for your time and attention.
    Mr. Mica. Well, thank you again for your testimony of each 
of the witnesses this morning.
    First of all, I'd like to ask unanimous consent that the 
testimony provided by Sharon Calvert on behalf of the Florida 
Alliance be made part of today's hearing record. Without 
objection, so ordered.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Mica. And we'll reiterate for anyone who arrived late 
that Mr. Rahall has asked that we pass a resolution in the 
Committee to leave the record open for two weeks, for a period 
of two weeks, so if you have suggestions or comments, we are 
only able to accommodate a limited number of witnesses at a 
formal hearing. But we can add your testimony or commentary to 
the record. You can do so through submitting that to myself, 
Ms. Brown who represents this area or to the Committee and it 
will be made part of the record.
    With that we'll begin a round of questioning. And I'll 
yield first to the ranking member, Mr. Rahall, the gentleman 
from West Virginia. You're recognized.
    Mr. Rahall. Thank you, Mr. Chairman. I thank all of our 
witnesses for very interesting testimony. As you heard me say 
at the beginning, what may work here in Central Florida doesn't 
necessarily work in rural parts of our Nation. That would apply 
to quite a bit of the testimony I heard this morning.
    But nonetheless, let me say that I do believe that a 
transportation policy should be national in scope and be able 
to connect all of our 50 states together just as with the 
original division of our interstate system. Certainly we in 
West Virginia, and I know my dear friend Corrine has already 
alluded to this, we do get more than we pay back on a per 
dollar basis into the Highway Trust Fund because of our unique 
circumstances. As I said in my opening comments, we have rugged 
terrain. It costs much more to build a mile of road in West 
Virginia than it would here in Florida, 24 to 25 times more.
    In addition, our state legislature in the past has stepped 
up to the plate, raised our state gas tax in order to leverage 
more Federal dollars. And certainly I would think it would be 
in Florida's best interest to attract tourists from Michigan, 
if you want them to come down to Disney World, they should not 
have to travel over Mickey Mouse roads to get here. So it's 
important that we have good roads in West Virginia to bring 
tourists here to the state of Florida.
    Let me ask you in particular, Mr. Burleson, you advocated 
the vehicle miles traveled formula as opposed to any gas tax 
increase. At the same time you were advocating doing away with 
transit funding out of the Highway Trust Fund, I assume 
transferring it over to general revenues, which I don't know 
where we'd get the money there to pay for transit. Plus the 
fact that the DOT would seem to push people more into transit 
because of the added cost of having to pay that type of fuel 
tax.
    Would you respond to that, plus a second part of it is: If 
you're against raising the gas tax, does the VMT have the 
potential to be even more burdensome versus a small increase in 
the gas tax to the consumer, to the driving public?
    Mr. Burleson. Thank you, Mr. Rahall. I was not--first off, 
I'm not opposed to raising the gas tax, but I recognize the 
political climate we're in. My concept of VMT would be that you 
would abolish the gas tax and replace it with VMT tax. So 
depending upon what rate it was at, it could be no more than 
the funding that's there now. But it does allow for all of the 
alternative fuel vehicles to also pay their share.
    Mr. Rahall. Where do we get transit funding?
    Mr. Burleson. Again, yeah, that's--I'm glad I'm not in your 
shoes, but I think that that is a--much more of an issue for 
the general fund at the Federal level and it's much more in my 
mind a local funding issue than it is a Federal funding issue.
    Mr. Rahall. Would any others wish to comment on any part of 
what I just said?
    Mr. Yarema. The National Surface Transportation Financing 
Commission did look at the long-term feasibility of the gas tax 
and concluded, as Mr. Burleson has suggested, that it's fatally 
flawed. So we recommended that we transition to replace the gas 
tax with a vehicle miles traveled fee or what I prefer to call 
the road user charge. One of the benefits of the road user 
charge is that it could be revenue neutral, as compared to the 
gas tax, and still achieve certain significant efficiencies 
because currently most users of the highway system don't have 
any clue how much gas tax they pay. They also have no clue that 
the gas tax is one of the few taxes that actually goes down 
every year because it's not indexed to inflation and it hasn't 
been increased since 1993.
    So the VMT or road user charge will offer the opportunity 
to show users what they're actually paying. The Federal Highway 
Administration and AASHTO have done an analysis that shows 
that, if users knew what they were actually paying to use the 
roads, it will affect their driving behavior. As a result, we'd 
be able to get about 30 percent more use out of our existing 
infrastructure than we're currently getting now just by that 
feedback mechanism that's created. So we will be able to do 
more with less even if it remains revenue neutral.
    Mr. Whitfield. As Mr. Burleson said, I think you would want 
to replace the gas tax with a VMT-type fee so that you do catch 
those vehicles who aren't paying their fair share. As for 
transit funding, I don't have an answer for that, but you've 
got to have a multi-modal transportation system. I come from an 
area where a third of the population is over 60 and in two 
weeks I'll be one of those. So as our transit operator once 
told the traffic engineer, some day you'll need me, so we do 
need to provide a transit system for those people who cannot 
drive any longer or should not be driving.
    Mr. Rahall. Thank you.
    Mr. Chairman, I would yield the balance of my time to 
Representative Brown.
    Mr. Mica. Ms. Brown, you're recognized.
    Ms. Brown. Thank you.
    First of all, Mr. Chairman, I want to thank all of the 
witnesses and I would hope that in the future that we have more 
comprehensive of additional segments of the transportation 
issues to address us. At the idea that, you know, 50 years ago 
Eisenhower came up with the highway system and it was 
wonderful. It worked. I mean, it hooked our country up.
    But now we're into another phase and we need additional--
not that we don't need the comprehensive highway system, 
someone here said, well, we need to change the formula. Let me 
explain something to you about changing the formula. Regardless 
of how many members you have in the House, you've got a hundred 
senators and not one of them want a change in the formula. It 
was a major issue for Florida to change that formula in 1992 
working with Texas and California and you're not going to get 
any changes because you don't have any additional revenue to 
put in the funding.
    I guess I want to ask as many questions that I want to ask, 
but I guess I'll go to the rail. We need a comprehensive rail. 
I understand we can't have high-speed unless we have a 
dedicated source of tracks. But you mentioned the rail from 
Jacksonville to Miami. I am very supportive of that kind of 
rail, but regardless you've got to upgrade the tracks. We're 
working on a loan program that work with that particular 
industry. It's comprehensive. We need SunRail. We need a 
comprehensive transportation system. It is not just building 
another road. And, in fact, if we look at another road, 
basically it's not the cost that tear it up. It's the trucks 
and we don't charge them what you have to charge them to run 
over the roads.
    So no form of transportation pays for itself whether it's 
aviation, roads and, you know, there's not really a real strong 
support in this room for a transit, but it was a part of it. So 
I guess I don't have a lot of time until my time comes, but I 
can just ask you Mr. Bruno, tell me about the SunRail and how 
the communities have worked together to come up with another 
form of getting people out of one car on that road and putting 
in maybe 30 or 40,000 people a day traveling that route.
    Mr. Bruno. Thank you, Representative Brown, for asking that 
question. I think it's very important for us to have SunRail in 
Volusia County and in your opening remarks you have indicated 
that some 40,000 people travels Volusia County, Seminole and 
Orange County every day for employment. So it is very 
important. I also sit on the Transportation Disadvantaged Local 
Coordinating Board so I know the needs of our community.
    We have--our senior population just gets more senior every 
day and we are not able to travel. Tourism is very important to 
Volusia County. You know, we have to start somewhere. SunRail 
is a good start. We envisioned having Amtrak hopefully coming 
down the east coast with a stop in the Daytona Beach area. 
SunRail from Daytona Beach hopefully to Orlando and then on to 
Tampa Bay in the future. And then for the Amtrak to continue 
down or high-speed to continue down--in the future down to the 
Miami Beach area.
    You can't build any more lanes on I-4. It's very dangerous. 
Even coming over here today, we probably would have been here 
an hour and a half earlier if it was not for the traffic on I-
4. So thank you for asking the question.
    Ms. Brown. Mr. Whitfield, you want to respond to that?
    Mr. Whitfield. Yes. I agree that there's more than just 
sticking the train on the track, but I believe that we have 
commitments from most of the cities along that area to provide 
for these stations as their part of the deal. The extension 
would also require construction of a crossing between the CSX 
track and the FEC track in West Palm Beach which will allow for 
the Amtrak service to continue to the south, but would also 
allow for the local commuter service to extend into the 
northern end of Palm Beach County and eventually to the 
counties further up.
    In the northern part of Palm Beach County there is a large 
biotech area with Scripps and Max Planck and additional land 
set aside for about eight million square feet of related 
industries that would open up to more people--more jobs that 
would be available to a larger population. I might mention, 
too, that in South Florida we have ten- and twelve-laned 
sections of I-95 that still don't work.
    Ms. Brown. Let me just add with that, because I'm very 
supportive of the project that you're talking about, but it 
relies on the Federal, state, local working together, and 
private. And it relies on accountable partners and if one 
partner is not accountable--because this whole project, whether 
it goes forward or not, is dependent on whether or not the 
Federal come up with the, I guess, seed money or whatever you 
want to say, to get the project going. So it takes a 
partnership and it takes not just the Federal Government 
putting up the money and then we don't have no working 
relationship with the state and local, it takes all of that to 
make those projects work.
    Mr. Whitfield. Yes, it does. I believe you had over 160 
resolutions and letters of support from all of the Metropolitan 
Planning Organizations, from all the cities, from all the 
counties that are involved. You've had strong commitment in the 
working relationship with those areas as far as the beginning 
of the planning phase of it, identifying property and making 
commitments for the stations themselves, working strongly with 
Amtrak----
    Ms. Brown. Sir, let me just say, also I've been working 
with the Federal Government with this project. It is a project 
that I think have a lot of possibilities. But once again, it 
still takes that partnership. What if the state decides, well, 
I don't want to be a partner in this, so then what happens? 
What happens--you talk about how many resolutions. Do you know 
what is a resolution? We got all kinds of resolutions and the 
legislature will pass bills, what does that mean? As we go 
forward, we've got to make sure that it means something when a 
state commit money, when the locals commit money and the 
Federals commit money. And privates, their concern particularly 
with Florida, that you make commitments. What does that mean 
when you can just change your mind because you have an 
election? That is a problem when you're talking about Federal 
taxpayer's dollars.
    I yield back my----
    Mr. Mica. Did you want to direct that question to----
    Ms. Brown. I don't know who can answer it. Who can answer 
it?
    Mr. Mica. Did you want to comment----
    Mr. Whitfield. I can't really speak for the state of 
Florida.
    Ms. Brown. No, you can't.
    Mr. Whitfield. In the local area, I know that there are 
particular funds under the formulas, Federal funds allocated to 
the local areas for a decision. Many years ago Palm Beach 
County's MPO put on the record a commitment of $25 million of 
those Federal funds that are allocated by formula to the Palm 
Beach MPO for an extension of train service to the northern end 
of Palm Beach County. And we anticipated that would be used as 
seed money to match any Federal or state funds that come down 
for extension of those services and could become part of what 
would be needed for the Amtrak service.
    Ms. Brown. Sir, from the state, if you can answer one 
question: What is the status of that study and when can we get 
a copy of it or do we have to subpoena it? We paid for it.
    Mr. Prasad. Congresswoman Brown, the study was released 
last week and I'll get you a copy of it this morning.
    Ms. Brown. Do you have both studies that was done?
    Mr. Prasad. We have actually the charge. The studies are 
not final until the end of the month because they're going 
through a peer review, but the charge, both the studies on the 
ridership and revenues are available. Those were released last 
Tuesday and I will get you a copy of it this morning.
    Ms. Brown. Thank you very much.
    Mr. Mica. Recognize that young lady from Hawaii, Ms. 
Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. One of the issues that 
this Committee has spent time on is really how we are going to 
pay for all of the different trust funds and this includes the 
Airport Trust Fund, the Highway Trust Fund, the Harbor Trust 
Fund and this whole idea of can we encourage more intermodal 
discussion, decision-making. I think one of the people 
testifying talked about how our system should really compliment 
each other, the different modes of transportation. And I think 
it was Mr. Lawless who particularly mentioned that.
    So would you suggest in our--in the Surface Transportation 
Bill that we encourage our systematize or institutionalize the 
need for these different modes of transportation entities to 
have to coordinate or talk to each other because that's what 
you-all are having to do at the local and state levels now. Any 
thoughts, any comments, any of you?
    Mr. Whitfield. I totally agree with you. One of the 
important things that we try to do in the area is to set 
everyone down in the same room to share our plans. We recently 
did a regional multimodal transportation plan that involved the 
transit operators for each of the three counties, the Commuter 
Rail Authority, the ports, the airports, the MPOs, all the 
people who are involved in providing the transportation 
services. Each of our long-range plans contain intermodal hubs 
that will provide for the ability to transfer from one mode to 
the other.
    It's very important to make that as easy as possible for 
the public because they don't want to transfer and change seats 
a lot of times and if they do have to change seats, it needs to 
be rapidly. So transportation hubs that provide for these 
intermodal shifts are very, very important to the process.
    Ms. Hirono. Anyone else?
    So you would agree that we should try and put in some 
language into our transportation bill that would--we may 
actually have to force these different institutions to talk to 
each other, the aviation, the----
    Mr. Whitfield. I'm not sure I want to say force, but maybe 
strongly encourage.
    Ms. Hirono. Strongly encourage.
    Mr. Whitfield. You need to keep in mind that it's 
transportation mobility, moving people and goods, however it 
takes place in whatever mode.
    Ms. Hirono. Agreed.
    I was curious, Mr. Lawless, about your experience with the 
Japanese high-speed train system. And you really made a good 
case for how important it is to have these trains run on their 
own tracks. Now Europe also has high-speed rail, do they have 
dedicated tracks in Europe, too?
    Mr. Lawless. They do and they also have shared track. So 
depending on the situation, they do run increasingly on their 
more dedicated newer lines fully-dedicated high-speed rail. 
When we say shared track there, we mean something a little bit 
different. It could be a similar-type vehicle only running at a 
lower speed, perhaps servicing other communities along the way.
    But if I may offer something to your previous question, 
because I think it was a very good question. In the last year 
or so working with the FDOT people on the previous project here 
in Tampa/Orlando, we were very, very encouraged by the attitude 
they took and the degree of planning that had gone into 
conceptualizing what multimodal connections would look like 
along that entire Tampa/Orlando high-speed rail route. 
Recognizing that even where there were not stations now and 
even where there weren't interconnections yet, the advent of 
the construction and the operation or maybe just the beginning 
of the construction and operation, would essentially create 
transit-oriented development centers which in and of themselves 
are very valuable to the community and would then draw the 
local planners, regional, metropolitan planners to adjust their 
local transit and multimodal systems be they bus, be they 
streetcar, be whatever they are to accommodate that new high-
speed rail station and around that high-speed rail station 
create a real estate development opportunity and a tax revenue 
opportunity that otherwise never would have existed there.
    So there's a lot to this and I think as you look at how the 
laws might be changed ever so slightly, there may be ways to 
incentivize people to build things simply because building a 
given rail line, high-speed rail line, SunRail, whatever, is 
going to create an opportunity for a transit-oriented 
development city center key to that. That has been the 
experience in Japan. It's been the experience in Europe and it 
works.
    Ms. Hirono. Thank you. I agree.
    I yield back.
    Mr. Mica. Thank you, young lady. I'll yield now to the 
gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    Mr. Prasad, in Texas and we heard a little bit about it 
earlier, we're experimenting with totally additional capacity. 
Have you-all started doing that in Florida or is that something 
you-all are looking at, any successes or failures you can 
report?
    Mr. Prasad. We have done I-95 express in Miami-Dade County, 
the first project to an urban partnership agreement where we 
added an additional lane of capacity to managed lanes, and it's 
been great success. The general purpose lanes, the average 
traffic speed has gone from 20 miles an hour to 40 miles an 
hour and we're maintaining average speed through the express 
lanes at 50 miles an hour.
    So again as I've mentioned in my testimony, express lanes 
and tolling new capacity on interstates will greatly enhance 
general purpose lanes, as is shown in Miami. The general 
purpose lanes are moving much faster than they've ever been 
because of our investments on the I-95 express lanes.
    Mr. Farenthold. And, Mr. Burleson, you were talking about 
the vehicle miles traveled tax. One of the concerns that I 
consistently hear about is the idea that big brother is 
watching you. Do you conceive of a system where we can 
eliminate the concerns that big brother is watching and knows 
where you are at all times through GPS's in your car.
    Mr. Burleson. Yes, sir, I do. I mean, I think that the full 
advantage of VMT ties itself into a GPS system where you can 
charge people different rates for driving at different times of 
the day or night. But I think you could have----
    [Brief interruption.]
    Mr. Farenthold. I don't know if that's me or you.
    Mr. Burleson. I don't know. Sorry.
    You can have something as simple as a reader that would 
simply read your mileage when you pulled into the gas station 
or the plug-in or whatever you have, the number of miles you've 
driven since the last time you filled up, 325 miles, let's say, 
and you're charged a penny a mile or something like that.
    Mr. Farenthold. All right. And, Mr. Lawless, you were 
relatively proud of Public-Private Partnership of the rail in 
Japan. There are several routes that are--I guess would be 
considered the plum routes for high-speed rail within the U.S., 
the northeast corridor in Texas we've got the Austin/San 
Antonio/Houston triangle. Here in Florida you've got one coming 
into here.
    What level--at what point is that something that could be 
done entirely by the private sector or how much is the 
government going to have to kick in? Could we just work on the 
right-of-way condemnation program with you? Or how much of the 
money are we going to have to throw in? My understanding of 
most rail services is it's able to cover the operating costs 
pretty regularly, but there's no reasonable way to recover the 
initial capital investment.
    Mr. Lawless. It's an excellent question. I think it is 
totally corridor specific. That's why I mentioned there's a 
recent study by America 2050. I don't know if you're familiar 
with it. It treats Texas very aggressively and positively 
obviously, what will our country look like in 2050 and it looks 
at city pair or coupled city pairs. And I think by taking a 
look at those critical city pairs, and you have three of them 
in Texas, you can see pretty much where it's going to be a 
reasonable proposition as long you have a minimum regulatory 
interference to build on a private basis or a very tight 
public-private basis. And by that I mean, that the state 
basically perhaps provides the right-of-way, perhaps on a lease 
basis, but otherwise gets out of the way of the private sector.
    Mr. Farenthold. Is it entirely--basically entirely private?
    Mr. Lawless. Essentially private, but the right-of-way 
issue is very important and having that right-of-way to build a 
system, even if it is only 40-feet wide, is very important.
    Mr. Farenthold. We love our private property rights in 
Texas. Witness the Trans-Texas corridor.
    All right. I'll yield back the remainder of my time. Thank 
you very much.
    Mr. Mica. Thank you.
    And I'll yield myself such time as I may consume here. I'm 
just making a note of some of the transportation initiatives 
for either high-speed or commuter rail in Central Florida. I 
wrote down, I know in 1983 when I was chief of staff for 
Senator Hawkins, she received the first $500,000 study. In 1989 
there was--actually there was a state commission on rail, then 
there's proposed demo project in '92, then we had Lynx take 
over some of the projects. We had a light rail proposal back in 
'98. That spent about $100 million. We have about $100 million 
into the current commuter rail proposal. All total I'd say the 
community's spent about a quarter of a billion dollars and so 
far all we have is a bunch of studies to show for it, which is 
pretty frustrating because you can't even get to the point of 
going forward with the project without having the preliminary 
engineering and study to get the cost.
    Maybe Mr. Bruno and our Assistant Secretary could tell us 
how--now this is only one example, Ms. Hirono--I know I was out 
in Hawaii 15 years ago with her predecessor, a wonderful lady 
who's left us, but looked at the Honolulu light rail. Now 
that's coming back finally, but they spent probably $100 
million in just studying it. Either of you local official or 
state official, can you--is there anything we can do, we've 
been through three governors on some of these projects and huge 
amounts of money spent and not much progress. Mr. Bruno?
    Mr. Bruno. Thank you, Mr. Chairman, for that question. I 
think that we have done everything we could possibly do. We 
have a great working relationship. It's a great partnership 
with the Federal Government putting in 50 percent of the funds. 
The state putting in 25 percent----
    Mr. Mica. Though the good stuff is nice, Mr. Bruno, but 
tell us about maybe the time, you know, these things going 
fast, you know, high speed forward or low gear or what.
    Mr. Bruno. I'm anticipating that we're still staying on 
track for the opening in 2013 of SunRail----
    Mr. Mica. Well, my point though is: How long has this one 
been going on.
    Mr. Bruno. For too many years, way too many years.
    Mr. Mica. Any idea of speeding up the process.
    Mr. Bruno. I don't know how we can speed up the progress 
anymore than we have. We've got all of our cities on board. 
We've got the train stations designed and ready to go. We've--
--
    Mr. Mica. What you're saying is you've done your part. 
Maybe you can tell us Mr. Prasad----
    Mr. Prasad. Well, as you know----
    Mr. Mica [continuing]. The nice smooth Federal process.
    Mr. Prasad. The discussion in the high-speed rail or 
SunRail is what is the return on investment. There's a lot of 
discussion about transit-oriented development. We have a case 
that----
    Mr. Mica. Well, you're still not answering my question. My 
question is: The process, this goes on and on and on and we're 
spending a lot of money. Is it a smooth process that goes 
forward in a rapid order or can it be--can something be done to 
change that.
    Mr. Prasad. I'm not so sure. These are complex projects and 
we're focused on rail. But if you look at tunnel projects or 
major infrastructure projects, it takes a lot of years and a 
lot of partners and a lot of funding sources to make it happen.
    Mr. Mica. Well, those aren't the answers that I was trying 
to get. There's really--some of the process just goes on and on 
and approvals take so long and situations change. But what I'm 
looking for is changes in the Federal process so that this is--
we aren't wasting taxpayer's money. We aren't spending career 
after career of people's lives pursuing these projects and 
getting nowhere.
    Maybe, Mr. Lawless, well, you did describe the Japanese 
projects and I guess they privatized, was that in '87?
    Mr. Lawless. Yes, that's correct.
    Mr. Mica. And since then you said that last year that--
since the private takeover they've actually made money.
    Mr. Lawless. They've made money. Every year they pay down 
their debts and they've made money to the degree that they've 
now committed to build, on their own from their own resources, 
a $60 billion complimentary system running on the same line.
    Mr. Mica. And I know you didn't want to be critical of the 
Obama administration, but you said that they're headed in the 
wrong direction and that they were--I guess 76 of the 78 awards 
went to Amtrak projects on freight rail lines, which--which 
would not necessarily separate that traffic or that kind of 
service; is that correct?
    Mr. Lawless. Yes, that's correct.
    Mr. Mica. OK. Ms. Stone, you talked about--a little bit 
about the problems with the disadvantaged. And one of the 
things we've heard before is there's a disconnect or problems 
between different types of transit services for the 
disadvantaged. There's some Medicare, I guess, Medicaid, maybe 
veterans' programs, there's other public transportation. And it 
seems we're going around in circles and sometimes spending too 
much money.
    We had Cathy Brown who heads the Counseling on Aging, what 
did she say, they had to drive 130 miles or something to get 
service. There's a disconnect in providing some of these 
services. Could you elaborate?
    Ms. Stone. Yes, there certainly are still some major gaps 
in the coordinated system. But as I mentioned in my testimony, 
here in the state of Florida for over 30 years we have had a 
coordinated system that is working. It is--we have very good 
data to stand on. Our current issue is with the issue of health 
care. I think that's everybody's interest anymore and 
transportation for those folks that need to go to physician 
appointments and treatments, et cetera. And within the SAFETEA-
LU it does require the government--or at least encourages 
government agencies to be purchasing transportation from a 
coordinated system so that you can have a shared ride, keep the 
costs down. We're looking at, here in the state of Florida, the 
potential that the Medicaid patients will be put into--or are 
encouraged to go into private HMOs. And then those HMOs would 
have the ability to pull those patients from the coordinated 
system and do their own transportation or broker it out thereby 
fracturing the coordinated system that we have had in place for 
so long.
    What you're looking at is people that are used to calling 
one number to set up their transportation. If they're going to 
a Medicaid compensable medical event, they're going to have to 
call another number. They're going to go in maybe a different 
vehicle. Then to go to the pharmacy to get a prescription 
filled, they have to call another number and go to another 
company. We're very, very concerned about that in the state of 
Florida. And in doing some of research for this, it's gone from 
over 100 something fragmented services in the United States 
down to maybe 80 that are bumping into each other.
    Again, I want to offer to the Federal Government our 
program here in Florida. It is award-winning. It's a model and 
since the beginning of SAFETEA-LU, other states have looked to 
us to help them set up their coordinated system. We need help 
from Federal and state level to keep that coordinated system 
intact and to do whatever is necessary, listen to us, listen to 
the people who ride the system, listen to the people who have 
been funding the system, to the providers, to help us keep it 
together so that we're not wasting money and wasting time. It's 
a shame that it could take someone as long as two hours to get 
to a doctor's appointment or get back. It shouldn't be that 
way.
    Mr. Mica. Thank you.
    Mr. Yarema, one of the keys to going forward is finding a 
good way to finance transportation. And you said, of course 
historically there are fewer grants and more loans. Some of 
you-all talked about leveraging to maybe three times whatever 
the figure was. I think South Carolina has for every public 
dollar they leverage, it's seven.
    Can you think of any ways or recommend to the Committee how 
we could improve leveraging or financing specifically? I know 
you talked about changing some of the source and basis, but as 
a matter of leveraging, any ideas?
    Mr. Yarema. Well, if you take an existing revenue stream, 
whether it's a toll revenue stream or a tax revenue stream, if 
you're interested in getting as much up front monies advanced 
for construction out of that given stream, private financing is 
preferable to municipal financing. So if we're trying to jump 
start the economy and to create more jobs now, private 
financing is going to be more effective in doing that. That was 
proven with the two projects here in Florida--the I-95 managed 
lanes project and the Port of Miami tunnel project--and with 
the Texas and Virginia experience.
    So, by maximizing the use of TIFIA, in the form of 
subordinated debt, you are helping to attract non-Federal 
capital above it and below it, giving the public the best 
leverage for each Federal dollar spent on transportation 
capital improvements.
    Mr. Mica. So we're very supportive, almost across the 
board, for the consolidation of programs. I was surprised to 
learn the $2,000 limit Mr. Prasad said on Davis-Bacon or that 
threshold, and it's not so much the terms, but the paperwork, 
is that what you said?
    Mr. Prasad. Yes, Chairman.
    Mr. Mica. So we could look at some sort of an exception 
there.
    And Mr. Whitfield brought up something the Committee hasn't 
paid much attention to and I'm not sure how we do that. Support 
research and technology, sometimes it changes with 
transportation initiatives that we develop from that research, 
can move traffic faster and better. Any idea in how that should 
be structured, Mr. Whitfield?
    Mr. Whitfield. Currently there are some Federal programs 
that do research into these types of things. It all comes 
under, I think, intelligent transportation services and that's 
where we get the signalization coordination, the dynamic 
message signs on the interstate that tells you when there's an 
accident ahead, all different types of things.
    Mr. Mica. Well, my question really deals more with how do 
you do that if we're consolidating programs and probably won't 
earmark programs like we have in the past. Any incentives, 
anything that could be held out there to--any innovative ways 
to get this accomplished and get people interested in 
intelligent transportation systems or reforms?
    Mr. Whitfield. I think in some case it's going to be the 
public is going to demand it because we can't widen the roads 
anymore, so we've got to use it more smartly. So then we start 
looking at some type of competition as to how would you go 
about using this roadway more efficiently or what technologies 
are out there that could do a better job of providing these 
types of coordination or technology solutions so that we can 
implement those and move more traffic on what we have today.
    Mr. Mica. Mr. Burleson mentioned some stability. We gave 
you that through September, which is a minor miracle plucking 
that out last week. But there's some people that say, well, 
let's just do a short-term bill for a couple of years and maybe 
the finances will get better and we can go back and take a bite 
at it. My inclination is a six-year long-term bill and try to 
put as many innovations and financing, getting more and using 
less.
    What's your recommendation on behalf of the Transportation 
Builders?
    Mr. Burleson. Mr. Chairman, I agree with you completely. We 
need a six-year bill.
    Mr. Mica. He goes to the head of the class.
    All right. Well, it is hard to plan when you have sporadic 
policy and funding formulas. I think I've covered most of the 
questions that I had left here. The tolling issue is a touchy 
one. I banned tolls on the interstate through this part of 
Central Florida, which is in the current legislation only--and 
I would be a strong opponent to tolling any existing capacity. 
I think, Mr. Burleson, you recommended the same thing, existing 
capacity. Mr. Whitfield, you strayed from the path, but we'll 
forgive you.
    The problem I have in Central Florida, we have about--from 
where you're sitting right now we have about 150 miles of toll 
roads that were developed locally, not to mention the State 
Turnpike, which was another 150 miles of toll road all 
financed--when people--if they got on the interstate here and 
we only have Interstate 4 going through here, we have no 
bypasses. The only bypasses are toll roads that have been built 
by the community. People pay twice, once at the pump and once 
at the toll booth. So that's been my concern.
    And then nationally, I don't believe you have an interstate 
system if you have a toll road every few miles. So the question 
on the balance of the footprint is a subject for discussion. 
Any recommendations, Mr. Whitfield?
    Mr. Whitfield. I don't stray entirely from that. We do call 
for the extension of the managed lanes that DOT has in the 
south up into Palm Beach County that would be toll lanes at 
that time.
    Mr. Mica. Well, that was a marginal project because we use 
some of the inside safety lane and an HOV lane, but that one 
got away.
    But your commentary was interesting because even with 12 
lanes of traffic, those dedicated lanes have--and I guess they 
got at least one more lane out of that having improved traffic 
flow down there. But if anyone wants a glimpse of what you 
don't want to have, just go down to South Florida. I was there 
last weekend. Or out in Los Angeles where we did the hearing. I 
think I counted like 18 lanes and I couldn't count them because 
I didn't want be distracted at all, but I think I got to 18 and 
stopped.
    And then the development along those interstates, whether, 
again, you come to Miami or Los Angeles is not very desirable 
what happens when you get that much concrete or asphalt laid 
out.
    Any other members have questions?
    Ms. Brown. Yes.
    Mr. Mica. Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. My question is in 
regard to NEPA Reform and the fact that we have five pilot 
projects underway currently. Or rather five pilot programs that 
allow five states to assume sovereignty, if you will, or 
responsibility over their NEPA obligations. Only one has 
participated, that being the state of California. And what 
we've heard from the other four, that their basic problem is 
that states are not willing to waive sovereign immunity.
    So my question would be: Would Florida be willing to assume 
this responsibility and waive your sovereign immunity?
    Mr. Prasad. We'll have to get back to you on that one.
    Mr. Rahall. OK. But you understand the pilot programs that 
are in effect?
    Mr. Prasad. Yes.
    And, if I may, the testimony I mentioned about the way to 
streamline some of the processes is to look at it on a state-
by-state basis and see if the states have the sophistication 
and have laws in place and processes in place that far exceed 
what the Federal Government requires, then why create both sets 
of rules. I'm not saying--I think the pilot project can be 
expanded to where on a state-by-state basis the FHWA or the DOT 
secretary can certify the state--that the state has processes 
that far exceed the Federal standards so we don't have 
duplicate business in the process.
    Mr. Rahall. Right. I understand that call for reform and 
certainly it's legitimate. I think the concern is that in 
planning documents there may not be sufficient quality and they 
would not develop with public participation. I think that's an 
important point to not have those planning documents submitted 
where there was not public participation involved in it. So 
that's certainly a concern that a lot of members of our 
committee have in that regard.
    Mr. Yarema, you mentioned the PPP's method of developing 
projects. And again, coming from a rural area, my concern there 
is that the private sector would cherry pick the revenues--the 
projects that have a revenue stream obviously, whereas in rural 
areas we may not have projects with sufficient revenue stream 
to attract a private sector for the PPP.
    Mr. Yarema. That's right.
    Mr. Rahall. So what's our problem? I mean, what's our----
    Mr. Yarema. You know, in reality, rural districts should be 
the biggest champions for these kinds of programs because, if 
the urban areas are using less and less Federal funds because 
their projects are more self-sustaining, that means the limited 
Federal funds can be spread to the rural areas more 
aggressively.
    Mr. Rahall. If we find those Federal funds.
    Mr. Yarema. Whatever Federal funds there are. The idea is 
that, if an urban project can support itself or can do it with 
very little Federal support, that should be a desirable result 
for rural interests. State legislatures with significant rural 
constituencies are analyzing that concept, and the more and 
more they see it, the more and more they appreciate it.
    Mr. Mica. Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman.
    Let me just say, once again, this is an example why we need 
a broader participation because I and the Committee, we've had 
lots of discussion about super projects and how we streamline 
them and how can we cut down on the time. But it's very 
important that we have kind of a one-stop committee process and 
have all of the other players in the room that can make a 
decision. But, for example, we were here today, we were talking 
about the Davis-Bacon Act. I mean, we can't just change Davis-
Bacon with nobody being here from Labor. So everybody got to be 
in the room when you're discussing major changes in any 
programs just for the information of everybody in the room.
    Mr. Burleson, I have a question for you because we had a 
lot of discussion and I voted for a stimulus bill that we--you 
know, nobody was really in favor of it, but we monitored the 
transportation dollars, every dime. We saw what projects, what 
roles and the status of it, and I want to know how your people 
benefited from those stimulus dollars in Florida.
    Mr. Burleson. It was great for us. I only wish there was 
more.
    Ms. Brown. I understand it was great for you, but how many 
jobs--do you know--I mean, one of the things that happened here 
in Florida is that none of the projects--no one knew, you know, 
it was just like it came from anywhere, the mayor, it came from 
us, it came from the Federal Government trying to make sure 
that we help trying to pull the economy around, but no one knew 
it because it had no indication that they were Federal dollars. 
So could you tell me how many jobs we generated.
    Mr. Burleson. I can't give you a specific number, but I can 
tell you that not only did it generate jobs, I think what it 
did more than that is it prevented an awful lot of people in 
our industry from being laid off, which I think is the same.
    Ms. Brown. Oh, I think so. I think so.
    OK. Mr. Lawless, I'm very--I traveled all over the world 
with the high-speed rail and, of course, I like the dedicated 
sources. We have the number one freight in the world and we 
want to keep it that way. But in some areas we can coexist and 
have more speed or better speed if we fix some of the tones.
    But this project, the high-speed project in Florida was the 
project that was ready to go. It started with Bob Graham some 
years ago, Lawton Childs, all of the environmental studies was 
done, we had many, many private partners, maybe you was one of 
them that wanted to participate, but the key is that we knew 
that it would be the first real high-speed in Florida and then 
we want it to go on to Miami, which we knew was a money maker.
    Can you tell me anything about--you know, there's been 
discussions and I think some people just kind of stuck-on 
stupid when it comes to giving misinformation. Can you tell me 
whether or not--what you think about the project? Because it 
didn't just happen, it took a lot of work, the people up here 
over a period of years to get it to happen. There was no other 
project in the entire country that had a 90 percent funding and 
it wasn't money from a foreign source, it was our tax dollars 
coming back to Florida.
    Mr. Mica. Mr. Lawless.
    Mr. Lawless. Yes, a couple of comments.
    Absolutely this project was shuttle ready and the finest 
high-speed rail, true high-speed rail project in the United 
States and in fact it would have become the poster child for 
all high-speed rail in the United States. Every aspect of 
this--in the year that we've been associated with it as one of 
the eight competing teams, we've been exceptionally pleased 
with the quality of the interaction we've had with the FDOT 
people who are very well-prepared in this whole process, 
they've done their homework.
    I think the big disappointment for all of the competitors--
I can't speak for them, but I will--is that we assumed the 
process would be one where the feasibility study was released, 
people could then take on more of what was there and what 
wasn't there with the updated statistics. And based on that, we 
would be able to make much better decisions about the degree to 
which we were willing to share in the risk of the project. And 
then the next process would have been, as you know, soon 
following on the release of the request for information, which 
would have been, again, stimulated the eight teams to make 
their proposals.
    The only negative side I would say, there is something I 
mentioned in my testimony, and, again, FDOT was there with us 
the whole time and worked very hard on this. We were very 
pleased with the dialogue we had with them. Was the lack of 
regulatory certainty. There were huge issues related to the 
standards that were going to be applied to this system, very 
unfortunately. And because of that regulatory uncertainty, many 
of us had real problems with what we would eventually build. 
But that said, we could have worked through that I think and 
reached a conclusion with FRA, with the support, again, a very 
well-organized FDOT. So we were disappointed that things did 
not progress.
    Mr. Mica. Thank you gentlemen and the young lady.
    What we'll do, we're going to have to complete the hearing 
at this time. The members do have a vote on the floor at 6:30 
and we have one opportunity to catch a flight at 1:30.
    Ms. Brown. Mr. Mica? Excuse me.
    Mr. Mica. Yes, Ms. Brown.
    Ms. Brown. You know, I represent the area with you and last 
night at the dinner discussion we were discussing Eatonville. 
And so Ms. N.Y. Nathiri is here and she has a little 
information--I'm not going to call it a gift--for each of the 
members so they would know something about our area.
    Mr. Mica. Well, thank you so much. N.Y. Nathiri, we're so 
pleased to have her. She has just done an incredible job, 
actually put together the Zora Neale Hurston Festival over the 
years. You'll be pleased to know, Ms. Nathiri, too, I took all 
of the members to a quick little tour before the hearing to 
Eatonville and actually showed them the memorial and provided 
Ms. Hirono, and the other members will have available Dust 
Tracks on the Road, which is the autobiography of our favorite 
daughter of Eatonville. But thank you so much for coming and 
for your hospitality today and remembering the members.
    Ms. Nathiri. Absolutely.
    Chairman Mica, we go back a very long way. And on behalf of 
the Association to Preserve the Eatonville Community, I just 
want to acknowledge that back in 1989 you led the effort to 
actually make that so, so it's good to be in your district. 
And, of course, we're very proud that Congresswoman Corrine 
Brown represents us.
    On behalf of Mayor Brown we have just a token, a book here 
on Zora Neale Hurston and we hope that you will come back in 
August of 2012 when Historic Eatonville celebrates its 125th 
anniversary as the oldest incorporated African American 
municipality in the United States.
    Mr. Mica. Thank you again. Thank you for your wonderful 
leadership and making your great American well-known who hasn't 
been known and deserves that notoriety for her incredible 
cultural and literary contributions.
    Also, I want to thank our witnesses for being with us and 
appreciate your testimony. We will leave the record open, as 
you heard. I thank the members for traveling long distances and 
what we'll do, too, is we don't want to ignore anyone, but 
we've got to request the members if they could please--we'll 
have a few minutes for just comments to the press at the back 
of the room to the side. And with that, we'll end.
    Ms. Brown. Mr. Chairman----
    Mr. Mica. We'll go forward to catch that 1:30 plane.
    Ms. Brown [continuing]. Just one question logistically, if 
someone didn't testify but they want to put information on the 
record, because I know Linda Stewart is here and she wanted to, 
on the environmental----
    Mr. Mica. Anyone that would like to submit any information, 
Mr. Rahall has passed a resolution leaving the record open for 
a period of two weeks. They could submit their testimony or 
recommendations, commentary to Ms. Brown, myself or to the 
panel, and we'll make it part of the record.
    We thank everyone for attending. There being no further 
business before the Committee of the House Representatives on 
Transportation and Infrastructure, this meeting is adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

</pre></body></html>
